HHS/OIG, Audit -"University of Massachusetts Medical School Review of NIH Grant No. 5 R01
GM30626-22,"(A-01-04-01505)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"University of Massachusetts Medical School Review of NIH Grant No. 5 R01 GM30626-22," (A-01-04-01505)
August 23, 2005
Complete
Text of Report is available in PDF format (838 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether
costs that the University of Massachusetts Medical School (the University) claimed for grant no.
5 R01 GM30626-22 from the National Institutes of Health (NIH) were allowable under the terms of the
grant and applicable Federal regulations.  We identified $281,993 in costs that did not comply
with OMB Circulars A-21 and A-110.  Of this total, $193,682 was in unsupported nonlabor costs
and related indirect costs, and $88,311 was in overstated labor and related fringe and indirect costs.  We
recommended that the University:  (1) ensure that accounting records are and retained; (2) comply
with requirements to provide a timely and detailed explanation and related documentation on transfers;
(3) improve its payroll distribution system; (4) ensure that the financial status reports that it
submits are accurate and timely and correct its final financial report; (5) improve its payroll distribution
system; (6) work with NIH to provide a reasonable adjustment for all improperly recorded grant application
activity; (7) identify and notify NIH of unobligated balances exceeding 25 percent of the total award
for the prior year; and, (8) refund $281,993 to NIH in overstated and/or unsupported costs.  The
University generally disagreed with our recommendations.